No.20-807
In the

Supreme Court of the United States
BRADLEY LEDURE

Petitioners,
v.

UNION PACIFIC RAILROAD COMPANY
Respondent.

On Petition

for a Writ of Certiorari to the
IJnited States Court of Appeals for the
Sewenth Circuit.
CERTIFICATE OF SERVICB

I, Lawrence M. Mann, co-counsel for the sheet Metal, Air, Rail
Transportation Workers-Transportation Division, the Brotherhood of Locomotive
Engineers and Trainmen, and the Academy of Rail Labor Attorneys, and a

member of the Bar of this court, hereby certify that on December 2g,2020,
caused three physical copies of their Brief of

Amici Curiae in Support of

Petition for a Writ of Certiorari in the above captioned case to be served upon
the following Counsel of Record, by third-p arty commercial carrier for

overnight delivery, and caused an electronic version of the document to be

transmitted to the following counsel by electronic mail:
Nelson G. Wolff
Counsel of Record
Jerome J. Schlichter
Schlichter Bogard & Denton LLp
100 South Fourth Street, Suite 1200
Saint Louis, MO 63 t\Z (314) 621-6 t 15
nwolff@uselaws.com
Counsel for Petitioner
J. Timothy Eaton
Jonathan B. Amarillio

Taft Steuinius & Hollister LLp
111 E. Wacker Drive, Suite 2g00
Chicago, IL 60601
Tel: 312.527.4000
teaton@taftlaw.com
jamarilio @taftlaw.com
Thomas E. Jones
Thompson Coburn LLp
525 W. Main Street, Suite 300
Belleville ,IL 62220
Tel.: 618.227.4700
tj one s @thomp soncoburn. com
Counsel for Respondent

Counsel of Record
92A5 Redwood Avenue
Bethesda, MD 20817
Alper & Mann, P.C.

(202) 2e$-eler
mann. I arryrm @gmai

l.

com

Co-Counsel for Amici Curiae

